      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                         Washington, D.C. 20201




May 17, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services

               /Diann M. Saltman/ for
FROM:          George M. Reeb
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Termination Claim for Postretirement Benefits Made by Blue Cross
               Blue Shield of Mississippi (A-07-11-00359)


Attached, for your information, is an advance copy of our final report on the termination claim
for postretirement benefit costs made by Blue Cross Blue Shield of Mississippi (BCBS
Mississippi). We will issue this report to BCBS Mississippi within 5 business days.

If you have any questions or comments about this report, please do not hesitate to contact me at
(410) 786-7104 or through email at George.Reeb@oig.hhs.gov or Patrick J. Cogley, Regional
Inspector General for Audit Services, Region VII, at (816) 426-3591 or through email at
Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-11-00359.


Attachment
                                                                          Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Office of Audit Services



                                                                            Region VII
                                                                            601 East 12th Street
                                                                            Room 0429
                                                                            Kansas City, Missouri 64106
May 23, 2011

Report Number: A-07-11-00359

Mr. Jeff Leber
Chief Financial Officer
Blue Cross Blue Shield of Mississippi
3545 Lakeland Drive
Flowood, MS 39232-9799

Dear Mr. Leber:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Termination Claim for Postretirement Benefits
Made by Blue Cross Blue Shield of Mississippi. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591 or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-11-00359
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Jeff Leber


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director and Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




REVIEW OF TERMINATION CLAIM
FOR POSTRETIREMENT BENEFITS
     MADE BY BLUE CROSS
 BLUE SHIELD OF MISSISSIPPI




                      Daniel R. Levinson
                       Inspector General

                          May 2011
                        A-07-11-00359
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Mississippi (BCBS Mississippi), through its wholly owned subsidiary
TriSpan Health Services, Inc., administered Medicare Part A operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until the
contractual relationship was terminated effective September 30, 2009. Throughout the period of
its Medicare contracts, BCBS Mississippi accounted for postretirement benefit (PRB) costs using
the pay-as-you-go method.

CMS reimburses a portion of its contractors’ PRB costs. In claiming PRB costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation and
applicable Cost Accounting Standards as required by their Medicare contracts. On
December 2, 2009, BCBS Mississippi submitted a termination claim of $4,198,848 to seek
reimbursement for future PRB costs that it had not incurred prior to the termination of the
Medicare contracts.

OBJECTIVE

Our objective was to determine whether BCBS Mississippi’s termination claim for PRB costs
associated with Medicare Part A contracts was allowable for Medicare reimbursement.

SUMMARY OF FINDING

BCBS Mississippi’s entire termination claim of $4,198,848 in PRB costs for the Medicare Part A
contracts was unallowable for Medicare reimbursement. The termination claim was calculated
based on a retroactive change in accounting practice without CMS approval. Therefore, and
pursuant to BCBS Mississippi’s Medicare contracts, none of the costs claimed were allowable.

RECOMMENDATION

We recommend that BCBS Mississippi withdraw its termination claim of $4,198,848 for PRB
costs associated with Medicare Part A contracts.

AUDITEE COMMENTS

In written comments on our draft report, BCBS Mississippi did not concur with our
recommendation. BCBS Mississippi stated that it had not changed its accounting practice.
BCBS Mississippi stated that it will continue to pay PRB benefits past termination on a pay-as-
you-go basis, but its “… current cost accounting practice does not recover these ongoing costs in
the future….” Citing FAR 49.201, BCBS Mississippi stated that the CMS Contracting Officer
should exercise business judgment to “assure that the contractor is made whole, which in this
case means, consistent with the statutorily-imposed requirements of contract which states that the
Intermediary not incur a loss” (emphasis in original). BCBS Mississippi’s comments are
included in their entirety as the Appendix.

                                                i
OFFICE OF INSPECTOR GENERAL RESPONSE

BCBS Mississippi did not provide any additional information that would cause us to revise our
finding or recommendation. With respect to BCBS Mississippi’s statement regarding
FAR 49.201, we acknowledge that both the FAR and relevant statutes support the general
principle that the CMS contracting officer has the authority to use business judgment in
addressing and compromising contract claims. However, this authority, in our view, cannot be
read to override provisions of the contract, CMS’s Budget and Performance Requirements
guidance, and the FAR regarding allocating and accounting for PRB costs. We held to these
provisions when determining that BCBS Mississippi’s unallowable PRB claim represented a
request for reimbursement of unallowable costs. Accordingly, we maintain that BCBS
Mississippi should withdraw the full termination claim amount.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 1
               Objective ............................................................................................................. 1
               Scope ................................................................................................................... 1
               Methodology ....................................................................................................... 1

FINDING AND RECOMMENDATION ................................................................................ 2

          FEDERAL REQUIREMENTS ....................................................................................... 2

          UNALLOWABLE TERMINATION CLAIM ............................................................... 3

          RECOMMENDATION .................................................................................................. 3

          AUDITEE COMMENTS................................................................................................ 3

          OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................... 3

APPENDIX

          AUDITEE COMMENTS




                                                                     iii
                                      INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Mississippi (BCBS Mississippi), through its wholly owned subsidiary
TriSpan Health Services, Inc., administered Medicare Part A operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until the
contractual relationship was terminated and operations ceased effective September 30, 2009.
Throughout the period of its Medicare contracts, BCBS Mississippi accounted for the
postretirement benefit (PRB) costs associated with Medicare Part A contracts using the pay-as-
you-go method.

CMS reimburses a portion of its contractors’ PRB costs. In claiming PRB costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR) and applicable Cost Accounting Standards as required by their Medicare contracts.

The Medicare contracts require that costs be estimated (budgeted), accumulated, and reported on
a consistent basis and that any change in accounting practice be submitted to CMS in advance for
approval. Furthermore, the FAR sets forth the allowability requirements and the three methods
of accounting for PRB costs that are permitted under a Government contract.

On December 2, 2010, BCBS Mississippi submitted a termination claim of $4,198,848 to seek
reimbursement for future PRB costs that it had not incurred prior to the termination of the
Medicare contracts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether BCBS Mississippi’s termination claim for PRB costs
associated with Medicare Part A contracts was allowable for Medicare reimbursement.

Scope

At the request of CMS, we audited the PRB termination claim of $4,198,848 that BCBS
Mississippi submitted for the Medicare Part A contracts’ PRB costs. Achieving our objective
did not require that we review BCBS Mississippi’s overall internal control structure. However,
we reviewed the internal controls related to the PRB termination claim to determine whether the
claim was allowable in accordance with the FAR and the Medicare contracts.

Methodology

We examined BCBS Mississippi’s PRB claim in relation to applicable laws, regulations, and
other Federal requirements. We also reviewed information presented in BCBS Mississippi’s
termination claim, which included support provided by BCBS Mississippi.



                                               1
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                            FINDING AND RECOMMENDATION

BCBS Mississippi’s entire termination claim of $4,198,848 in PRB costs for the Medicare Part A
contracts was unallowable for Medicare reimbursement. The termination claim was calculated
based on a retroactive change in accounting practice without CMS approval. Therefore, and
pursuant to BCBS Mississippi’s Medicare contracts, none of the costs claimed were allowable.

FEDERAL REQUIREMENTS

FAR 31.205-6(o) sets forth the requirements and applicable methods of accounting for PRB
costs under a Government contract. PRB costs may include, but are not limited to,
postretirement health care; life insurance provided outside a pension plan; and other welfare
benefits, such as tuition assistance, daycare, legal services, and housing subsidies provided after
retirement. PRB costs do not include retirement income and ancillary benefits, such as life
insurance, that pension plans pay following employees’ retirement.

FAR 31.205-6(o)(2) requires contractors to use one of three methods for measuring and
assigning PRB costs to accounting periods:

   •   The cash basis (or pay-as-you-go) method recognizes PRB costs when they are paid.

   •   The terminal funding method recognizes the entire PRB liability as a lump-sum payment
       upon termination of employees. The lump-sum payment must be remitted to an insurer
       or trustee for the purpose of providing PRBs to retirees and is allowable if amortized over
       15 years.

   •   The accrual method measures and assigns costs according to generally accepted
       accounting principles and pays costs to an insurer or trustee to establish and maintain a
       fund or reserve for the sole purpose of providing PRBs to retirees. The accrual must be
       calculated in accordance with generally accepted actuarial principles and practices as
       promulgated by the Actuarial Standards Board.

The Medicare contract, Appendix B, section II(A), requires that costs be estimated (budgeted),
accumulated, and reported on a consistent basis. In addition, CMS issued to Medicare
contractors the Budget and Performance Requirements (BPR), section VI(B), which states that
“as regards the allocation of such costs to the Medicare contract/agreement … [a]ny change in
accounting practice for such pension and/or post-retirement benefit costs must be submitted to
CMS in advance for approval” [emphasis in original]. The BPR further defines a change in
accounting practice to include “a change from cash (pay-as-you-go) accounting to accrual
accounting….” In response to our prior reviews of PRB termination claims, CMS agreed that

                                                 2
the Medicare contracts do not permit retroactive changes in accounting practices without
advance CMS approval; accordingly, CMS issued cost disallowances on that basis.

UNALLOWABLE TERMINATION CLAIM

BCBS Mississippi’s contractual relationship with CMS was terminated on September 30, 2009.
On December 2, 2010, BCBS Mississippi submitted a termination claim of $4,198,848 to seek
reimbursement for future PRB costs that BCBS Mississippi had not recognized prior to the
termination of the Medicare contracts.

Throughout the entire period of its Medicare contracts, BCBS Mississippi claimed PRB costs for
the Medicare Part A contracts using the pay-as-you-go method. By selecting this method, BCBS
Mississippi signified that, pursuant to the FAR and its Medicare contracts, it would be
reimbursed only for actual paid claims during each year.

BCBS Mississippi based its termination claim for PRB costs on a retroactive change in its
contract cost accounting practice from the pay-as-you-go method to the accrual method. BCBS
Mississippi did not obtain CMS approval before making this change, as required by the BPR.
Therefore, BCBS Mississippi’s claimed reimbursement for $4,198,848 in PRB costs was
unallowable.

RECOMMENDATION

We recommend that BCBS Mississippi withdraw its termination claim of $4,198,848 for PRB
costs associated with Medicare Part A contracts.

AUDITEE COMMENTS

In written comments on our draft report, BCBS Mississippi did not concur with our
recommendation. BCBS Mississippi stated that it had not changed its accounting practice.
BCBS Mississippi stated that it will continue to pay PRB benefits past termination on a pay-as-
you-go basis, but its “… current cost accounting practice does not recover these ongoing costs in
the future….” Citing FAR 49.201, BCBS Mississippi stated that the CMS Contracting Officer
should exercise business judgment to “assure that the contractor is made whole, which in this
case means, consistent with the statutorily-imposed requirements of contract which states that the
Intermediary not incur a loss” (emphasis in original). BCBS Mississippi’s comments are
included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

BCBS Mississippi did not provide any additional information that would cause us to revise our
finding or recommendation. With respect to BCBS Mississippi’s statement regarding
FAR 49.201, we acknowledge that both the FAR and relevant statutes support the general
principle that the CMS contracting officer has the authority to use business judgment in
addressing and compromising contract claims. However, this authority, in our view, cannot be
read to override provisions of the contract, CMS’s BPR guidance, and the FAR regarding

                                                3
allocating and accounting for PRB costs. We held to these provisions when determining that
BCBS Mississippi’s unallowable PRB claim represented a request for reimbursement of
unallowable costs. Accordingly, we maintain that BCBS Mississippi should withdraw the full
termination claim amount.




                                             4
APPENDIX
                                                                                                               Pagelof2


                                   APPENDIX: AUDITEE COMMENTS 




              TRISPAN                                               www.rrlspan.com
              HEALTH SERVICES, INC.                                 1'. O. Box 230.6 ' {arhon, M5 • 39225·3046
              MEDICARE PMT A INWIMEOMRY                             r06~   Flynr Dri_e' Flowood, MS • 39231·9570
              A CMI   C"""Q"<~   int<rm<d",,,,



  March31.2011


  Patrick 1. Cogley
  Regional Inspector General For Audit           ~rvices
  Omce of Audil Services. Region VII
  601 EasI12 i1o SlrCt."\. Room 0429
  Kansas City. MO 64106

  Re: TriSpan Postre tirement Welfare Benefits

  Blue Cross & Blue Shield of Mississippi C'OCBSMS") submits this leuer in response to the
  Dcpanment of Health & Human Services ("HHS"). Office of Inspcetor General ("OIG"). draft report
  entitled Review ofTermillatiofl Claim for Postreliremem Benefits Made by BIlle Cross BIlle Shield of
  Mississippi ("Drafi PRB Report").

  The Draft PRB Report concludes that BCBSMS's claim for Postretirement Benefit ("PRB")
  reimbursement in the amount of$4.198.848 related to DCBSMS's Title XVIII Medicare contract is
  "unallowable for Medicare reimbursement ... based on a retroactive change in accounting practice
  without eMS approval." BCBSMS is not in concurrence with this recommendation and believes our
  PRB obligations should be considered by the contracting officer as part of the final settlement.

  As stated in our original letter dated December 2. 20 IO. BCI3SMS has and will continue to pay for
  these benefits past tennination. I3CBSMS's curren! COS! accounting practice docs nOl recover these
  ongoing costs in the future because BCBSMS will no longer hold a Medicare contract with eMS
  against which to charge these costs. FAR 49.201 specifically provides that busines,<; judgment. not
  rigid tleeounting principles. are to govern the scttlement oftenninations:

         A settlement should compensate the commetor fairly ror the work done nnd the 

         preparations made ror the tenninated portions of the contract. including a 

         reasonable allowance for profit. Fair compcns.1tion is a matter ofjudgment and 

         ealmO! be measured exactly. In a given case, various methods may be equally 

         appropriate for arriving at fair compensation. The use of business judgment. as 

         distinguished from strict accounting principles. is the heart or a settlement. 


         (b) The primary objective is to negotiate a scnlcment by agreement. The 

         panics may agree upon a IOlal amollnllO be paid the contractor without agreeing 

         on or segregating the particular clements of costs or profit comprising this 

         amount. 





 CA#Sj
""-'--1
                                                                                                                 Page2of2




                TRISPAN                                               www.rriJplln .com
                HEALTH SERVICES, INC                                  ~.o. Box 2JO~6' Jo'bo~, MS • 3912.5·3046
                MED!CA1IE PARr A INTERMEOIM/Y                         1064 flynt Dritlt. flowood, MS' 1'l1J2·9S7(}
                A CAlf   ","Irot,,,, !ntor_j0t"(


           (e) Costs and accounting data may provide guides, bUI are nOI rigid measures,
           for ascertaining fair compensation. In appropriate cases, costs may be
           estimated, differences compromised, and doubtful questions settled by
           agreement. Other types of data, criteria, or standards may furnish equally
           reliable guides to fair compensation. The amount of recordkceping, reporting,
           and (lccounting related to the settlement of terminated contracts should be kept
           to a minimum eompatible with the reasonable protection of the public intercsts.

   As noted above, a concept central to termination proceedings is that the Contracting Officer is to
   exercise business judgment to assore equitable treatment of the contractor. Such trealment necessarily
   includes actions which assure that the contractor is made whole, which in this case means, consistent
   with the statutorily-imposed requirements of contract which states that the Intermcdiary nOI incur a
   loss. BCBSMS has provided the documentation for the Medicare segment PRB liabilities and requests
   OIG and CMS give consideration for the liability generated by BCBSMS's long service to the
   Medicare program.

   We continue to incur post retirement expenses on a pay as you go basis since the termination of the
   contract. We will be accumulating these expenses and submitting them for reimbursement
   periodically as termination expenses until we reach a fmal settlement. Since these are expenscs that
   are a direct result of BCBSMS Medicare contract, they should be fully reimbursable as a tennination
   expense and do not represent a change in accounting practice. At the time of final settlement, we
   would like to discuss BCBSMS future PRB obligations as we believe we are entitled to equitable
   treatment as allowed under the FAR.

   Sincerely,



                    , CPA
    Blue Cross Blue Shield of Mississippi
    Vice President, Finance and R& D




  ails/
·.. _ ·- -7
